UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

PpptrtJ/X E,

No: 20-2169

Edward Jones
Plaintiff - Appellant
v.
William Aaron Traylor, Traylor farm; Clarence Jones; Jesse B. Daggett, PLLC; Michael Traylor;
Wayne Traylor
Defendants - Appellees
Appeal from U.S. District Court for the Eastern District of Arkansas - Delta
(2:20-cv-00116-JM)
JUDGMENT

Before LOKEN, GRUENDER, and GRASZ, Circuit Judges.

This court has reviewed the original file of the United States District Court. It is ordered
by the court that the judgment of the district court is summarily affirmed. See Eighth Circuit
Rule 47A(a).
September 21, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Append(/x
Case: 2:20-cv-00116-JM

Document #: 3-0

Date Filed: 06/04/2020

Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
DELTA DIVISION
EDWARD JONES
V.

PLAINTIFF
2:20CV00116 JM

WILLIAM AARON TRAYLOR;
CLARENCE JONES; JESSE B
DAGGETT; WAYNE TRAYLOR;
and MICHEAL TRAYLOR

DEFENDANTS
ORDER

Plaintiff Edward Jones’s motion to proceed in forma pauperis (Doc. No. 1) is granted.
See Martin-Trigona v. Stewart, 691 F.2d 856, 857 (8th Cir. 1982) (per curiam) (complaint can be
filed if plaintiff qualifies by economic status under 28 U.S.C. § 1915(a)).
The Court must screen his complaint. 28 U.S.C. § 1915(e)(2). Plaintiffs claims echo
those made in a case dismissed last month. Jones v. Traylor, No. 2:20-cv-86-BSM, Doc. 2, 3, &
4. The case was dismissed under § 1915(e)(2)(B), because it “described] fantastic or delusional
scenarios,” and had no rational basis in the law. Id. (citing Neitzke v. Williams, 490 U.S. 319,
327-28 (1989)). Plaintiff has refiled the claims attempting to better state his position.
As he did previously, Plaintiff explains that he sued the Traylors and Clarence Jones in
Lee County Circuit Court in 2017. (Doc. No. 2 at 2). Previously, Plaintiff claimed that Daggett,
an attorney who represented the Defendants, allowed an imposter to impersonate Clarence Jones
in a pretrial-state hearing. Jones v. Traylor, No. 2:20-cv-86-BSM (Doc. 2 at 2). Mr. Jones again
claims that the Clarence Jones who appeared at the hearing was an imposter, and he asks this
Court to compel the production a video of the August 29, 2017 hearing to prove the Defendants
intentionally mislead the state circuit court. (Doc. 2 at 3).

/

/

Case: 2:20-cv-00116-JM

Document #: 3-0

Date Filed: 06/04/2020

Page 2 of 2

“A pro se plaintiff must set forth enough factual allegations to ‘nudge [] their claims
across the line from conceivable to plausible,’ or ‘their complaint must be dismissed’ for failing
to state a claim upon which relief can be granted.” Bell Atlantic Corp. v. Twombly, 550 U.S. 544,
569-70 (2007); see also Aschroft v. Iqbal, 556 U.S. 662, 678 (2009) (“A claim has facial
plausibility when the plaintiff pleads factual content that allows the court to draw the reasonable
inference that the defendant is liable for the misconduct alleged.”). Regardless of whether a
plaintiff is represented or is appearing pro se, the plaintiffs complaint must allege specific facts
sufficient to state a claim. See Martin v. Sargent, 780 F.2d 1334, 1337 (8th Cir. 1985) After
reviewing Plaintiff s pro se complaint, the Court finds that the complaint should be, and hereby
is dismissed sua sponte. Nothing in the complaint resembles a cause of action.
As stated, the Court grants Plaintiffs motion to proceed IFP. (Doc. No. 1). The Court
further finds that Plaintiffs complaint fails to state a claim for relief and, therefore, the
' complaint (Doc. No. 2) is dismissed without prejudice. The Clerk is directed to close the case.
IT IS SO ORDERED this 4th day of June, 2020.

UNITED STAT1ES DISTRICT JUDGE

2

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-2169
Edward Jones
Appellant
v.
William Aaron Traylor, Traylor farm, et al.
Appellees

Appeal from U.S. District Court for the Eastern District of Arkansas - Delta
(2:20-cv-00116-JM)
ORDER
If the original file of the United States District Court is available for review in electronic
format, the court will rely on the electronic version of the record in its review. The appendices
required by Eighth Circuit Rule 30A shall not be required. In accordance with Eighth Circuit
Local Rule 30A(a)(2), the Clerk of the United States District Court is requested to forward to this
Court forthwith any portions of the original record which are not available in an electronic
format through PACER, including any documents maintained in paper format or filed under seal,
exhibits, CDs, videos, administrative records and state court files. These documents shoiild be
submitted within 10 days.
June 11,2020

Order Entered Under Rule 27A(a):
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Additional material
from this filing is
available in the
Clerk's Office.

